OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/PAKISTAN’S
PRIMARY HEALTHCARE
REVITALIZATION,
INTEGRATION AND
DECENTRALIZATION IN
EARTHQUAKE-AFFECTED
AREAS PROJECT
AUDIT REPORT NO. 5-391-10-010-P
JUNE 28, 2010


MANILA, PHILIPPINES
     Office of Inspector General


     June 28, 2010

     MEMORANDUM

     TO:       	          USAID/Pakistan Director, Robert J. Wilson

     FROM: 	              Acting Regional Inspector General/Manila, William S. Murphy /s/

     SUBJECT:	            Audit of USAID/Pakistan’s Primary Healthcare Revitalization, Integration
                          and Decentralization in Earthquake-Affected Areas Project (Audit Report
                          No. 5-391-10-010-P)

     This memorandum transmits our final report on the subject audit. In finalizing the audit
     report, we considered your comments on the draft report and have included the
     comments in their entirety in appendix II.

     The final audit report contains one recommendation to assist the mission in improving
     the patient referral system of the program. On the basis of information provided by the
     mission in response to the draft report, we determined that final action has been taken
     on that recommendation.

     Thank you for the cooperation and courtesy extended to us during this audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd., 1308 Pasay City
Metro Manila, Philippines
www.usaid.govoig
CONTENTS 

Summary of Results ....................................................................................................... 1 
      X




Background ..................................................................................................................... 3 
X




Audit Objective .................................................................................................................. 4 

                                                                                                                                    X




Audit Findings ................................................................................................................. 5 
X




Has USAID/Pakistan’s Primary Healthcare 

Revitalization, Integration and Decentralization in
Earthquake-Affected Areas Project contributed to
improving access to and quality of primary health
care services in these areas?

     Patient Referral System Has Not Been Fully
     Implemented ............................................................................................................. 10

                                                                                                                                X




Evaluation of Management Comments ....................................................................... 12 
                  X




Appendix I—Scope and Methodology......................................................................... 13 
                  X




Appendix II—Management Comments........................................................................ 15 
                    X
SUMMARY OF RESULTS

On October 8, 2005, residents of northern Pakistan were shaken by a 7.6 magnitude
earthquake that would claim more than 74,000 lives and leave some 3.5 million people
homeless. The earthquake took the lives of 16,000 people in the Mansehra District of
Pakistan’s North-West Frontier Province (recently renamed Khyber Pakhtunkhwa) and
7,500 people in the Bagh District of Azad Jammu and Kashmir Province. Thousands of
teachers, health care providers, and civil servants were among those killed or badly
injured. Public systems that supported essential services, including logistics and
administration for health care, no longer existed. In response to this disaster,
USAID/Pakistan designed the Primary Healthcare Revitalization, Integration, and
Decentralization in Earthquake-Affected Areas (PRIDE) Project and awarded a
$28.5 million cooperative agreement to the International Rescue Committee (IRC), U.S.-
based nongovernmental organization, to provide technical support to the public sector
health system in the earthquake-affected Districts of Mansehra and Bagh (page 3).     X   X




The project has three main goals: (1) improving the performance of public health
services and management systems, (2) improving access to and quality of primary
health care services, and (3) promoting healthier behaviors and institutionalizing
community participation in health services. The project covers a 4-year period that
began on August 15, 2006. As of September 30, 2009, the project had obligated
$18.2 million and had disbursed $17 million.

The Regional Inspector General/Manila conducted the audit to determine whether the
project had improved access to and quality of primary health care services in the
earthquake-affected areas. Our audit focused on the project’s second goal—improving
access to and quality of health care services—because this goal is most directly related
to improving health care services in the earthquake-affected areas (page 3).  X   X




The audit found that the project has contributed to improving the quality of primary health
care services, but much work remains to be done on improving access to these
services—particularly with regard to referring patients to facilities that offer a higher level
of health care when patients’ conditions cannot be treated at primary health care
facilities. The following project activities contributed to improving the quality of primary
health care services:

1. 	Implementing a “standards-based management and recognition approach,” which
    sets and implements standards, measures progress, and rewards achievement.
    This activity helped improve the quality of health care in 89 of 126 primary health
    care facilities, covering 14 performance areas (page 5).X   X




2. 	Developing guidelines for a “performance improvement process” for public health
    facilities. These guidelines were then used by health facility managers and staff in
    121 project health facilities. In applying these guidelines, 11 priority health problems
    were identified (e.g., pneumonia and tuberculosis) with subsequent corrective
    actions focusing on these problems at the health care facility level (page 6).

3. 	Establishing 113 “health management committees” at basic health units and rural
    health centers to bring together community representatives, local government

                                                                                              1
   representatives, and health care providers to develop guidelines to ensure improved
   health care services (see page 6). By the end of September 2009, committees had
                                     X   X




   used project-developed guidelines to approve 35 grant proposals funded at
   $268,889. These grants funded local infrastructure improvements such as schemes
   to supply clean drinking water, roads leading to health facilities, and health facility
   renovations (page 7).

4. 	 Renovating local drug storage facilities and mentoring drug facility staff on managing
     these facilities. This activity upgraded infrastructure at 58 of the 88 targeted health
     facilities, mentored facility staff on drug supply management, and developed a list of
     essential drugs and procurement protocols for managing the drug supply rationally
     and within existing budgets (page7).

5. 	 Conducting training, mentoring, and workshops on various clinical and operational
     matters, contributing to an improvement in the quality of primary health care (page
     8).

While the project showed success in improving primary health care quality,
improvements were needed in the access to health care services at higher levels. To
promote wider access to such services, the project had planned to strengthen the patient
referral system. However, the preliminary planning for improving the referral system was
completed a year later than anticipated, and the implementation of an improved referral
system is not expected until June 2010. Implementation was delayed because
Government of Pakistan staff scheduled to work with the project implementer were not
available when needed. Also, other project activities took precedence over revamping
the patient referral system (see page 10). The report recommends that USAID/Pakistan
                                             X   X




develop and implement an action plan to improve patient referral system in both project
districts, including provisions to (1) establish proper communication procedures between
primary health care centers and higher-level facilities, (2) disseminate improved
procedures to participating facilities and provide training as necessary, and (3) establish
effective supervisory review of referral cases (page 11).
                                                     X   X




On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final action has been taken on the one
recommendation. The mission’s written comments on the draft audit report are included
in their entirety, without attachments, as appendix II to this report (page 15).




                                                                                          2
BACKGROUND

On October 8, 2005, residents of northern Pakistan were shaken by a 7.6 magnitude
earthquake that would claim more than 74,000 lives and leave some 3.5 million people
homeless. The earthquake took the lives of 16,000 people in the Mansehra District of
Pakistan’s North-West Frontier Province (recently renamed Khyber Pakhtunkhwa) and
7,500 people in the Bagh District of Azad Jammu and Kashmir Province. Thousands of
teachers, health care providers, and civil servants were among those killed or badly
injured. Public systems that supported essential services, including logistics and
administration for health care, no longer existed.




     The epicenter of the October 8, 2005, earthquake was in northern Pakistan. The project 

           covered the Mansehra and Bagh Districts in the earthquake-affected area. 

         (Map based on Office for the Coordination of Humanitarian Affairs/ReliefWeb.) 


In response to this disaster, USAID/Pakistan designed the Primary Healthcare
Revitalization, Integration, and Decentralization in Earthquake-Affected Areas (PRIDE)
Project. USAID awarded a $28.5 million cooperative agreement to the International
Rescue Committee (IRC), a U.S.-based nongovernmental organization, to implement the
project. IRC heads a consortium of implementers for the project, including U.S.-based
partners Management Sciences for Health (MSH), Jhpiego (an affiliate of Johns Hopkins
University), and the Population Council. The 4-year project began on August 15, 2006,
and as of September 30, 2009, the project had obligated $18.2 million and had
disbursed $17 million.


                                                                                                3
The project has three main goals: (1) improving the performance of public health
services and management systems, (2) improving access to and quality of primary
health care services, and (3) promoting healthier behaviors and institutionalizing
community participation in health services. Each of the three main goals has multiple
subgoals, and each subgoal has several activities. Most of the activities, across all
goals and subgoals, are interdependent. For example, the activities under the first goal
benefit the first goal more directly, but those activities also indirectly benefit the other two
goals.

The audit focused on the project’s second goal—improving access to and quality of
health care services at primary health care facilities—because this goal was central to
the overall effort to improve health care in the two earthquake-affected districts. These
primary health care facilities provide outpatient services and include dispensaries, “basic
health units,” and “rural health centers”—centers that provide more extensive outpatient
services as well as limited inpatient services for the observation and treatment of
patients who are not expected to require referral to a higher-level facility.

To answer the audit objective on improving access to and quality of primary health care
services in these earthquake-affected areas, the audit team focused on the following
subgoals:

•	 Setting and implementing health service standards in primary health care facilities
   using a standards-based management and recognition approach—a methodical
   approach to setting and implementing standards, then measuring progress toward
   those standards and recognizing achievements.

•	 Improving the skills and service delivery capacity of primary health care providers by
   conducting classroom training, on-the-job training, mentoring, and workshops in
   health care areas.

•	 Establishing referral mechanisms for health care providers to refer patients to the
   appropriate health care facilities for proper treatment.

Since the activities under all three goals are interdependent, our audit also reviewed the
activities under the other two goals.

AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2010 annual audit plan to answer the following question:

•	 Has USAID/Pakistan’s Primary Healthcare Revitalization, Integration and
   Decentralization in Earthquake-Affected Areas Project contributed to improving
   access to and quality of primary health care services in these areas?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                              4
AUDIT FINDINGS

The audit found that the project has contributed to improving the quality of primary health
care services, but much work remains to be done to improve access to these services—
particularly with regard to referring patients to health care facilities that offer a higher
level of services when patients’ conditions cannot be treated at primary health care
facilities.

The following five project activities contributed to improvements in the quality of primary
health care services in the earthquake-affected Districts of Mansehra and Bagh.

1. 	Implementing a standards-based management and recognition approach to
    use when performing health care services.

The project implemented a standards-based management and recognition approach,
which includes using a checklist of procedures for health care providers to follow when
performing health care services. Performance measurements established early in the
project showed that the project experienced significant improvements in the quality of
health care.

After implementing the project’s approach in 89 of 126 primary health care facilities—
covering 14 performance areas in two phases (30 facilities in the first phase and 59
facilities in the second phase)1—performance of management and health care providers
has significantly improved. For the first group of 30 facilities, which began measuring
performance in June 2007 through March 2009, the quality of primary health care
services increased from a combined baseline score of 14 percent of standards achieved
to 56 percent achieved in performance areas such as physical resources, infection
prevention, focused antenatal care, family planning, child immunization, integrated
management of newborn and child illness, malaria, and tuberculosis. For the second
group, which began measuring performance 1 year later in June 2008 through March
2009, the quality of primary health care services increased from a combined baseline
score of 7 percent of standards achieved to 30 percent achieved in the same
performance areas.

The introduction of this approach in the Bagh District resulted in a special initiative to
implement a maternal, newborn, and child health care package that provides essential
services such as family planning, focused antenatal care, care during labor and delivery,
and postpartum care. The quality of essential obstetric care was much higher in the
seven rural health center facilities that had implemented the initiative. The project
compared the quality of service in the 7 rural health centers with 17 rural health centers
that were not a part of the initiative. Quality at these 7 centers showed a combined
score in the quality of care of 74 percent compared with only 7 percent at the 17 centers
that were not a part of this initiative. Consequently, this special initiative brought about a
significant improvement in the quality of obstetric care in those facilities.



1
  The approach was to be implemented in the remaining 37 facilities during a third phase, starting
in October 2009.

                                                                                                5
   The obstetric care delivery room at Hari Ghel in the Bagh District of Azad Jammu and Kashmir
      Province, where the standards-based management and recognition approach has been
               implemented. (Photo by Office of Inspector General, November 2009.)

2. 	 Developing guidelines for a process to improve performance at public health
     facilities.

The project developed guidelines for a process to improve performance at public health
facilities. The process would help primary health care facility managers assemble
information, analyze the current service operations, select priority health problems to
address, and choose and plan interventions for improving the performance of health
services. These guidelines were then used by health facility managers and staff in 121
health facilities covering both districts. In applying these guidelines, 11 priority health
problems were identified (e.g., pneumonia and tuberculosis), and subsequent corrective
actions focused on these problems at the health care facility level. Also, as part of the
improvement process, health facility managers identified six constraints to addressing
these problems, which the project then addressed.

3. 	Establishing health management committees and developing guidelines for
    them to improve local health care services.

The project established 113 health management committees for basic health units and
rural health centers to bring together community representatives, local government
officials, and health care providers. The project also developed guidelines for these
committees to improve health care services in their facilities. Most of the committees
had obtained legal status enabling them to open bank accounts to manage small project


                                                                                                  6
grants of up to $10,000 per committee. This grant program helped build the capacity of
the committees to manage local health-related improvement projects. By the end of
September 2009, committees had used project-developed guidelines to approve 35
grant proposals funded at $268,889.         These grants funded local infrastructure
improvements such as schemes to supply clean drinking water, build roads leading to
health facilities (see photo below), and renovate health facilities. At the Khawari rural
health center in Mansehra, the committee’s influence and its ability to manage its own
funds helped solve staffing shortages and water and electrical supply problems. The
Khawari committee had participated in proposal writing and project management training
that enabled the center to receive a grant from the project. In addition, the committee
raised funds to make improvements. These improvements, along with added staff,
helped increase the number of outpatients using services at the center from 568 per
month in 2008 to 835 per month in 2009.




 To provide better access to the Chatter Health Care Facility in the Bagh District, a small grant was
 approved by the health management committee for this new road, shown here under construction.
                      (Photo by Office of Inspector General, November 2009.)

4. Renovating drug storage facilities and mentoring facility staff.

The project renovated drug storage facilities for storing and dispensing drugs and
mentored facility staff on drug supply management, storage, and dispensing practices.
Drug management infrastructure was upgraded in 58 of the 88 targeted health facilities.
The remaining facilities are scheduled to be completed during the balance of the

                                                                                                    7
agreement period. Furthermore, the Province of Azad Jammu and Kashmir officially
adopted a project-developed essential drug list and procurement protocols to guide them
in managing the drug supply more rationally and within the existing budgets. To oversee
drug management, the project also established pharmacy and therapeutic committees in
Azad Jammu and Kashmir. In August 2009 the project started work in the North-West
Frontier Province, which includes the District of Mansehra, to adopt an “essential-drug
list” approach for better drug supply management. Better storage facilities, trained staff,
and the use of an essential-drug list and procurement protocols resulted in further
improvements in primary health care.




    The drug storage facility at Balakot Tehsil Headquarters Hospital in the Mansehra District was
          renovated by this project. (Photo by Office of Inspector General, November 2009.)

5. Conducting training, mentoring, and workshops for health care providers.

Finally, the project conducted training, mentoring, and workshops for health care
providers in various technical and operational matters, such as the following:

•   Infection prevention
•   Maternal and newborn health
•   The standards-based management and recognition approach
•   Drug supply management
•   Integrated management of newborn and child illnesses
•   Basic obstetric care
•   Midwifery training lab
•   The performance improvement process
•   Health management committees


                                                                                                     8
These activities also contributed to the observed increase in overall quality.




  The midwifery school training laboratory at the Mansehra District Headquarters Hospital in the
Mansehra District was funded by the project. (Photo by Office of Inspector General, November 2009.)

Although the project has shown success in improving primary health care quality, access
to health care services needed improvement. The project had planned to strengthen the
patient referral system, but after the first 3 years of the 4-year project, the project had only
begun to implement new approaches in the existing referral system to improve access to
health care services, especially for women in the rural populations. This topic is
discussed below.




                                                                                                 9
Patient Referral System Has
Not Been Fully Implemented

    Summary. In response to the intent of the project’s cooperative agreement to
    establish appropriate patient referral mechanisms, the implementer’s work plan for
    2008 identified five activities to be completed in fiscal year 2008 that were meant to
    strengthen the referral system. As of September 2009, 1 year later than planned,
    the implementer had completed four of five activities, and the fifth activity—
    implementing a revised patient referral plan—may not be completed until June
    2010. The activities were delayed because Government of Pakistan staff scheduled
    to work with the implementer were not available when needed and because of other
    factors. As a result, at the time of the audit, the new approach for the referral system
    was working in only 7 of 126 health facilities in the Mansehra and Bagh Districts,
    representing only a minimal improvement in access to health care.

The project’s cooperative agreement proposes establishing new approaches to reduce
delays in the provision of health care and to improve access to medical care, especially
for women in the rural populations of the Mansehra and Bagh Districts. The project
concentrated on referrals for women, since they often face opposition from traditionally
minded family members when health services are required away from home. To carry
out the agreement’s intent to establish appropriate referral mechanisms, 2 the project’s
                                                                                 FFFF   FFFF




fiscal year (FY) 2008 work plan identified five activities to be completed within that year
to help build a better referral system. The project intended to develop new approaches
for increasing timely access, primarily for women, to higher levels of health care
services. The five planned activities were (1) to identify and obtain agreement with
stakeholders on an improved patient referral system, (2) to review the existing referral
system, forms, and mechanisms, (3) to identify gaps in the existing referral system, (4)
to develop a plan for implementing revised procedures; and (5) to support
implementation of a revised referral system plan.

However, as of September 2009, over 3 years into the 4-year project, the implementer
had only begun to carry out the revised referral system plan. At the time of the audit, the
revised referral system was working in only 7 of 126 health facilities in the two districts.
The implementer anticipated completing this activity in June 2010, but the following
factors have prevented the timely completion of the five planned activities:

•	 Female health care staff (known as “lady health care workers”) became available to
   work with the project implementer only in the beginning of FY 2009 because the
   Government of Pakistan’s Ministry of Health was concerned that using its staff on
   this project during post-earthquake efforts would stretch its human resources too
   thin.

•	 Most of the health management committees, which are critical to community
   participation in strengthening the referral system, became fully functional only in
   FY 2009.

2
 A patient referral system is meant to refer patients to higher-level or more specialized health
care when their conditions cannot be treated at home, by traditional healers, or by staff at basic
health units.

                                                                                               10
•	 Project activities to build the capacity of health care staff and make quality
   improvements—such as the standards-based management and recognition
   approach—took precedence over revamping the patient referral system.

•	 Many of the patient referral activities proposed by the project required involvement
   by health managers and health care providers, as well as community members—and
   that involvement, according to a project official, had to be negotiated on terms and
   schedules suitable to key stakeholders.

As a result, at the time of the audit, the new approach for the referral system was working in
only seven health facilities in the Bagh District and none in the Mansehra District. Notably,
from May 2009 to September 2009, these 7 facilities had made 211 referrals to the district
hospital, which in turn referred 37 cases to more specialized facilities outside the district.
However, no referral documentation at other health facilities reported that patients were
being referred to higher-level health facilities.

Before the project started, the implementer had identified deficiencies in the existing
process to provide timely and appropriate referrals. Specifically, some primary health care
workers were not aware of referral procedures and were not familiar with available health
care services at higher-level facilities. This project intended to develop a plan for
implementing improved patient referral procedures. The improved system was meant to
establish proper communication procedures between primary health care centers and
higher-level facilities, disseminate revised procedures to participating facilities, and
establish supervisory review of referral cases. Specific referral procedures include the
following:

•	 Developing a system for both forward and backward referrals
•	 Printing referral registers and referral forms
•	 Preparing written communications to accompany each forward and backward referral
   with a clear designation of the facility to which the patient is being sent
•	 Keeping track of forward referrals to higher-level facilities and referrals back to primary
   health care centers
•	 Identifying community-based private emergency transport systems
•	 Involving health management committees in establishing referral mechanisms

However, more than 3 years into the 4-year project, an improved patient referral system
has not been implemented at most of the primary care facilities supported by the project.
As a result, these facilities have had no improvements that would demonstrate improved
access to health care services beyond primary outpatient care, especially with regard to
referring women from outpatient primary care facilities for treatment by higher-level or more
specialized facilities. Therefore, we are making the following recommendation.

     Recommendation 1. We recommend that USAID/Pakistan develop and
     implement an action plan to improve the patient referral system in both project
     districts.    This plan should include provisions to (1) establish proper
     communication procedures between primary health care centers and higher-
     level facilities, (2) disseminate improved procedures to participating facilities
     and provide training as necessary, and (3) establish effective supervisory
     review of referral cases.

                                                                                           11
EVALUATION OF
MANAGEMENT COMMENTS
On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final action has been taken on the one
recommendation.

For recommendation 1, the mission agreed with the recommendation and subsequently
prepared and implemented a plan to improve the patient referral system in both districts
in which the project was operating. The project established a communications system
for all referrals, disseminated improved referral procedures and provided training when
needed, and reviewed and monitored referral cases on a regular basis.

The mission’s written comments on the draft report are included in their entirety, without
attachments, as appendix II to this report.




                                                                                       12
                                                                                  Appendix I



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila (RIG/Manila) conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. The objective of this audit was to
determine whether USAID/Pakistan’s Primary Healthcare Revitalization, Integration and
Decentralization in Earthquake-Affected Areas (PRIDE) Project contributed to improving
access to and quality of primary health care services in these areas.

We conducted this audit at USAID/Pakistan from October 6 to December 18, 2009, at
the headquarters office of the International Rescue Committee (IRC), in Islamabad,
Pakistan. We also conducted audit fieldwork at IRC offices located in the Districts of
Mansehra and Bagh. From October 15 to 17, 2009, the team conducted a total of 14
field visits to various health care facilities, such as a district headquarters hospital, the
Tehsil headquarters hospital, rural health centers, and basic health care units.

The 14 healthcare facilities selected and visited were chosen on the basis of their
proximity to the epicenter of the earthquake and their accessibility. Eight of 14 field visits
were in the Bagh District and the remaining 6 were in the Mansehra District. The audit
team observed and interviewed health care staff including doctors, health care
technicians, female health care staff, and members of the health management
committees established by the project, on the project’s contribution to improving access
to and quality of primary healthcare services. We visited IRC’s headquarters in
Islamabad and its field offices in Bagh and Mansehra to make physical observations and
to verify reported data against source documents on activities related to improving
access to and quality of primary health care services.

The audit primarily focused on activities carried out during fiscal years 2007, 2008, and
2009. We obtained an understanding of the management controls related to the project.
The management controls identified included the project’s performance management
plan, mission portfolio review, agreement officer’s technical representative site visits, the
project’s progress reports, day-to-day interaction between mission staff and IRC, and the
mission’s self-assessment of management controls as required by the Federal
Managers’ Financial Integrity Act of 1982 3   FF




Methodology

To answer the audit objective, we interviewed officials from USAID/Pakistan and the
IRC. We also reviewed and analyzed relevant documents from the mission and the IRC.


3
    Public Law 97-255, as codified in 31 U.S.C. 1105, 1113, and 3512.


                                                                                           13
This documentation included the agreement between the mission and IRC, annual
performance management and implementation plans, quarterly progress reports, annual
reports, financial records, and newly established standards, guidelines, and training
materials related to the audit objective.

We determined whether the activities in the IRC’s work plans had achieved their planned
results on the basis of interviews with the IRC staff and a review of the documentation
provided. To test the validity of the performance data reported by IRC, we selected a
judgmental sample of a key performance indicator used in the project’s two districts.
The test compared performance data reported in June 2009 to supporting documents
maintained at IRC field offices in Mansehra and Bagh and at its headquarters. The audit
found no exceptions.




                                                                                    14
                                                                             Appendix II




MANAGEMENT COMMENTS


MEMORANDUM



Date:          June 17, 2010

To:            Bruce N. Boyer
               RIG/Manila

From:          Robert J. Wilson /s/
               Mission Director

Subject:       Management Comments
               Audit of USAID/Pakistan’s Primary Healthcare Revitalization, Integration
               and Decentralization in Earthquake (PRIDE)-Affected Areas Project.
               (Report No. 5-391-10-00X-P)

Reference:     Draft audit report No 5-391-10-00X-P dated May 07, 2010.


In response to the referenced draft audit report, please find below the management
comments on the one recommendation included therein:

Recommendation 1. We recommend that USAID/Pakistan develop and implement
an action plan to improve patient referral system in both project districts. This
plan should include provisions to (1) establish proper communication procedures
between primary health care centers and higher-level facilities, (2) disseminate
improved procedures to participating facilities and provide training as necessary,
and (3) establish effective supervisory review of referral cases.

Management Comments:

Mission management concurs with this recommendation. Following the completion of
the audit, the PRIDE project management prepared and implemented a plan to address
the audit recommendation on improving the patient referral system in both project
districts. The specific actions taken follow;

      (1) Establish proper communication procedures between primary health care
          centers and higher-level facilities




                                                                                      15
       The project established a communication system for all referrals including an
       initial phone call to the facility of referral and a follow-up call after the referral to
       record the outcome. Communication costs are funded by facility user’s fees and
       verified by the District Health Officer personally. Communication systems include
       the project support of the telephone and cell phone communication through the
       behavior change modification component. Quarterly sub-district meetings are
       held with the facility     in-charge of the referral to discuss referrals made during
       the month and challenges and improvements as necessary. Also, monthly
       referral meetings at Essential Obstetric Care Facilities and District Headquarters
       Hospital are held at with all facilities in-charge to discuss referrals made during
       the month.

   (2) Disseminate improved procedures to participating facilities and provide
       training as necessary

       Dissemination of improved procedures at facilities for referrals include: Referral
       registers have been printed and distributed to all facilities in the two
       districts. Clinic staff was trained to maintain the registers. Referral registers are
       completed by all health facility staff and entries are reported on a monthly basis
       in the Health Management Information System (HMIS). Several trainings have
       been imparted to staff for building their competency in the management and use
       of the data in the HMIS system. In addition Lady Health Workers are trained to
       refer clients through referral forms from the community level to the health facility
       level. Each Lady Health Worker has an assigned “referral box” in the facility.
       Both the Lady Health Workers and members of the Community Health
       Committees have been trained on the referral procedures.

   (3) Establish effective supervisory review of referral cases

       Referral cases are reviewed and monitored on a regular basis. As noted above
       there are quarterly sub-district meetings with facility managers to discuss
       referrals and improvements to the referral system. There are also monthly
       meetings at the facility level and the District Health Office that regularly checks
       on referrals at the individual facilities.

As all necessary actions have been taken, the Mission requests closure of this
recommendation upon issuance

Atch: a/s

CC:    ASIA/SCAA:              Andrew Plitt




                                                                                             16
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue NW 

          Washington, DC 20523 

            Tel.: 202–712–1150 

            Fax: 202–216–3047 

            www.usaid.gov/oig
